IN THE SUPREME COURT OF THE UNITED STATES
No. 19DONCEY FRANK BOYIUN,
Petitioner
v.
UNITED STATES OF AMERICA,

Respondent.

CERTIFICATE OF SERVICE
I. Steven Winkelman, a member of the Bar of this Court, hereby certify that
on April 30 2020, I caused three copies of the Petition for a Writ of Certiorari in the
above-entitled case to be served by Federal Express on the following counsel:
Michael B. Billingsley
U.S. Attorney's Office
1801 4th Avenue N.
Birmingham, AL 35203
Michael.Billingsley@usdoj.gov
(205) 244-2001

Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave., N W
Washington, DC 20530-0001
supremectbriefs@usdoj.gov

I further certify that all parties required to be served have been served.

Steven W, kelman
Counsel of Record
Covington & Burling LLP
One CityCenter
850 Tenth Street, NW
Washington, DC 20001
(202) 662-6000
Counsel for Petitioner Doncey Boykin

